U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                    PUBLIC
                   RELEASE

             NATIONAL OCEANIC AND
       ATMOSPHERIC ADMINISTRATION

NMFS’s Habitat Conservation Program Awards
            Were Not Competitively Selected,
                           CFDA No. 11.463


      Audit Report No. STL-10953-9-0001 / March 1999




                   Office of Audits, Seattle Regional Office
U.S. Department of Commerce                                                                           Audit Report STL-10953-9-0001
Office of Inspector General                                                                                             March 1999

                                                             CONTENTS

                                                                                                                                      Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  6

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   8

   I. Habitat Conservation Program Is Not Administered As a
      Competition-Based Financial Assistance Program . . . . . . . . . . . . . . . . . . . . . . . . . . .                             8

        A. NMFS did not develop and publish
           merit-based evaluation criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 9

        B. Solicitation and review process did not comply
           with competitive requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   9

        C. Two noncompetitive awards under the program
           lacked adequate justification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                10

   II. NOAA Reviews Of Proposed NMFS Awards Are Not Effective . . . . . . . . . . . . . . .                                           14

   III. Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   15

         A. NOAA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

         B.     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

   IV. Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          15

APPENDIX I - NOAA/NMFS Procedures for Solicitation, Review, and Selection of Awards

APPENDIX II - New Awards and Amendments for Fiscal Year 1997

APPENDIX III - NOAA Response to Draft Report
U.S. Department of Commerce                                             Audit Report STL-10953-9-0001
Office of Inspector General                                                               March 1999

                                   EXECUTIVE SUMMARY

The Office of Inspector General conducted an audit of the fiscal year 1997 procedures and
practices for soliciting, reviewing, and selecting applications for financial assistance under the
National Oceanic and Atmospheric Administration’s National Marine Fisheries Service’s
(NMFS) Habitat Conservation Program, classified as No. 11.463 in the Catalog of Federal
Assistance. This audit was conducted as part of a Department-wide review of Commerce’s
discretionary financial assistance program initiated at the request of the Chairman of the Senate
Committee on Commerce, Science, and Transportation.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of the awards. These
programs involve a significant portion of the Commerce Department’s budget and operations,
approximately $1 billion annually. If not properly administered, they are susceptible to fraud,
waste, and misuse of funds.

Through the Habitat Conservation Program, NMFS provides grants and cooperative agreements
for biological, economic, and other research projects on the coastal environment to benefit U.S.
fisheries. In fiscal year 1997, the program awarded two cooperative agreements, three
continuation amendments to existing cooperative agreements, one grant, and one continuation
amendment to an existing grant, totaling $6,546,958. All seven awards were made
noncompetitively in response to unsolicited proposals. Five of the awards, totaling $6,317,178,
were made on the basis of legislative mandates. One award, totaling $154,780 was made on the
basis of language contained in the fiscal year 1997 appropriations conference report. The
original awards for the continuation amendments were also made noncompetitively in response
to unsolicited proposals.

We examined NMFS’s criteria, procedures and practices for the solicitation, review, and
selection of Habitat Conservation Program awards and found that did not comply with
departmental and NOAA requirements and were not adequate to guide agency officials in making
merit-based discretionary funding decisions. We found that the program was not administered as
a competition-based financial assistance program, as encouraged by federal laws and regulations
and mandated by Commerce policies and procedures. In addition, we examined the written
justifications prepared for the seven noncompetitive awards made in fiscal year1997 and found
two to be inadequate. The justifications for the remaining five awards contained the legislative
authorization for the awards or adequately explained the recipient’s unique capabilities for
completing the proposed project.

Specifically, we found that NMFS:

l      Did not comply with the Department’s requirement that merit-based evaluation criteria
       against which program applications for financial assistance could be reviewed, be
       developed and published. (See page 8.)


                                                 i
U.S. Department of Commerce                                            Audit Report STL-10953-9-0001
Office of Inspector General                                                              March 1999

l      Did not comply with the Department’s requirement that a notice be placed in the Federal
       Register, at least annually, announcing the availability of funds and soliciting award
       applications, and specifying the criteria and the process to be used in reviewing and
       selecting applications for funding. (See page 8.)

l      Did not comply with the Department’s requirements that (1) all financial assistance
       awards be made on the basis of a competitive review process, unless a special waiver is
       obtained, and (2) the competitive review process meet minimum standards established by
       the Department. (See page 8.)

As a result of these deficiencies, NMFS cannot provide reasonable assurance that noncompetitive
awards made under the program are merit-based and represent the most effective means of
achieving program objectives.

Lacking competitive award procedures, there is a greater potential for NMFS to make
questionable or even inappropriate noncompetitive program awards in instances where
competition from other sources is available. NMFS risks foregoing the receipt of research
proposals from a broad range of eligible applicants thus may lose opportunities to increase the
effectiveness of the Habitat Conservation Program.

We also found that the NOAA grants office did not provide adequate oversight of NMFS’s
administration of the program. (See page 14.)

In its response to the draft report, NOAA stated that the agency agrees that more awards should
be granted competitively for all discretionary funding programs and that a rigorous solicitation
process should be used. NOAA also stated that the agency is continuing to look at its current
processes and will provide more specific comments and details as part of the audit action plan
submitted in response to the final report (see Appendix III).

We recommend that the Assistant Administrator for Fisheries ensure that financial assistance
awards under the Habitat Conservation Program are made through a competitive merit-based
process, unless otherwise mandated by law or adequately justified, and that the award process
complies with Department policies and procedures and includes the following four elements:

       (1)     Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations;

       (2)     Independent application reviews that consistently apply written program
               evaluation criteria;

       (3)     Written justifications for award decisions that deviate from recommendations
               made by application reviewers.



                                                ii
U.S. Department of Commerce                                            Audit Report STL-10953-9-0001
Office of Inspector General                                                              March 1999

       (4)     Adequate written justifications for noncompetitive awards which document
               appropriate market search efforts to validate the determination that there is only
               one source for the anticipated award. The market search should include, at a
               minimum, a preaward notice in the Federal Register stating that the agency
               expects to make a noncompetitive award and inviting other qualified parties to
               inquire.

We also recommend that the Chief Financial Officer/Chief Administrative Officer, as the
Director of the Office of Finance and Administration, which includes the Grants Management
Division, require that grants officer reviews of proposed noncompetitive awards include
procedures designed to objectively determine compliance with Department and NOAA
competitive requirements.

Our recommendations appear on pages 15 and 16.




                                                iii
U.S. Department of Commerce                                             Audit Report STL-10953-9-0001
Office of Inspector General                                                               March 1999

                                       INTRODUCTION

The National Oceanic and Atmosphere Administration’s (NOAA) mission is to describe and
predict changes in the Earth’s environment and to conserve and manage wisely the nation’s
coastal resources. The National Marine Fisheries Service’s (NMFS) mission is to provide
stewardship of living marine resources for the benefit of the nation through their science-based
conservation and management and promotion of the health of their environment. NOAA,
through NMFS, administers the Habitat Conservation Program, classified as No. 11.463 in the
Catalog of Federal Domestic Assistance. The program’s objectives are to provide grants and
cooperative agreements for biological, economic, and other research of the coastal environment
to benefit the U.S. fisheries.

The Habitat Conservation Program did not have legislation authorizing a financial assistance
program and did not receive specific annual appropriations or funding allotments. Program
awards have always been made noncompetitively in response to unsolicited proposals. The fiscal
year 1997 awards, totaling $6,546,958, were funded with funds transferred from the Highway
Trust Fund, funds received in a damage settlement from an oil spill, and appropriations provided
to NMFS for its various fishery programs. The awards were made under the authorities of the
Coastal Wetlands Planning, Protection, and Restoration Act, the Comprehensive Environmental
Response, Compensation, and Liability Act, and the Fish and Wildlife Coordination Act.

The Coastal Wetlands Planning, Protection, and Restoration Act of 1990 directed the U.S. Army
Corps of Engineers to establish a task force composed of representatives of five federal agencies
and the State of Louisiana to develop a comprehensive approach to preventing the loss of and
restoring coastal wetlands in Louisiana. The task force was required to prepare a comprehensive
Coastal Restoration Plan for Louisiana by the end of 1993, which provides the basis for selecting
priority projects for implementation. This task force must annually prepare and transmit to
Congress a priority list of Louisiana wetland restoration projects. The Act created the Coastal
Wetlands Trust Fund, which is supported by a tax on small engines and equipment. Of the
amount appropriated, 70 percent is to be available to fund wetland restoration projects and
associated activities in Louisiana. NMFS represents NOAA on the task force and, during fiscal
year 1997, sponsored five wetland restoration projects through this program.

The Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
authorizes Commerce to fund projects to protect and restore wetlands and other coastal habitats.
CERCLA authorizes NOAA to assess and claim damages from responsible parties for damages
to natural resources from oil spills. The law requires NOAA to use the assessed funds to restore
the damaged resources to their natural state.

The Fish and Wildlife Coordination Act, as amended, authorizes the Secretary of Commerce to
provide assistance to federal, state, and public and private agencies and organizations in the
development, protection, rearing, and stocking of species of wildlife, resources thereof, and their
habitat, and in controlling losses to the same from disease or other causes.


                                                 1
U.S. Department of Commerce                                           Audit Report STL-10953-9-0001
Office of Inspector General                                                             March 1999



NMFS made seven awards under the Habitat Conservation Program in fiscal year 1997. All
seven awards were made noncompetitively to organizations that had submitted unsolicited
proposals. Unsolicited proposals are applications for financial assistance that are not submitted
in response to a formal solicitation notice published in the Federal Register. Two of the
proposals were submitted in response to specific requests from NMFS. The projects and the
organizations to be funded had been identified by NMFS beforehand. NMFS did not request the
five proposals submitted by the State of Louisiana. The projects contained in these five
proposals were identified and authorized by the Louisiana Coastal Wetlands Conservation and
Restoration Task Force, of which the State of Louisiana and the Department of Commerce are
members.

The awards consisted of two cooperative agreements, three continuation amendments to existing
cooperative agreements, one grant, and one continuation amendment to an existing grant. The
awards were made to two states and a zoological society. The original awards for which
continuation amendments were used were also made noncompetitively in response to unsolicited
proposals. NMFS chose the cooperative agreement as its award mechanism for two of the three
new awards because program officials planned to be substantially involved in the projects. For
the remaining three cooperative agreements, NMFS chose a continuation amendment to an
existing agreement because the project had been funded in a previous year.

Five awards totaling $6,317,178 were made to the State of Louisiana using funds transferred
from the Highway Trust Fund as legislatively mandated under the Coastal Wetlands Planning,
Protection, and Restoration Act. One award for $75,000 was made to the State of Rhode Island
under authority of CERCLA with funds assessed under the Acts. The remaining award for
$154,780 was made under authority of the Fish and Wildlife Coordination Act with fiscal year
1997 NMFS appropriated funds provided to its Office of Protected Species.

Discretionary assistance programs are those for which federal agency officials have the authority
to decide (1) which eligible applicants will receive awards, and (2) how much financial
assistance that will be awarded. Competition is generally recognized as the most effective means
of ensuring that financial assistance awards are made on the basis of merit. One of the purposes
of the Federal Grant and Cooperative Agreement Act (31 U.S.C. §6301) is to encourage
competition in the award of federal financial assistance to the maximum extent practicable.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by the OMB to examine competition in financial assistance
programs, determined that financial assistance award processes, to ensure effective competition,
should include three basic elements. These elements, which were discussed in OMB’s June 1980
report, Managing Federal Assistance in the 1980's, are still applicable, and include:




                                                2
U.S. Department of Commerce                                            Audit Report STL-10953-9-0001
Office of Inspector General                                                              March 1999

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justification for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following circulars which set forth the policies and procedures to be
followed in administering federal financial assistance programs:

l      OMB Circular A-89, Federal Domestic Program Information, implements The Federal
       Program Information Act (P.L. 95-220) requiring agencies to systematically and
       periodically collect and distribute current information to the public on federal domestic
       assistance programs, which is accomplished through the semiannual publication of the
       Catalog of Federal Domestic Assistance.

l      OMB Circulars A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity
       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be review for consistency with agency priorities by a policy level official.

l      OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
       with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
       requires agencies to provide the public with advance notice of their intended funding
       priorities for discretionary assistance programs unless such priorities are established by
       federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements the Federal
       Managers Financial Integrity Act (P.L. 97-255) requiring agencies to establish
       management controls for federal programs and operations, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.

Commerce has relied on OMB’s guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO)
203-26, Department of Commerce Grants Administration, requires that (1) all Commerce
financial assistance awards be made on the basis of competitive reviews unless a special waiver
is obtained, (2) competitive review processes meet minimum standards outlined in the DAO, and
(3) all Commerce agencies publish, at least annually, a notice in the Federal Register announcing

                                                3
U.S. Department of Commerce                                           Audit Report STL-10953-9-0001
Office of Inspector General                                                             March 1999


the availability of funding, soliciting award applications, and specifying the criteria and the
process to be used in reviewing and selecting applications for funding. Also, agency-initiated
noncompetitive or unsolicited awards should be adequately justified in writing as part of an
internal control system defined in OMB Circular A-123 and required by DAO 203-26, Section
4.02 i.

The chart presented on the following page depicts the basic process and controls for the
solicitation, evaluation, and selection of financial assistance awards as set forth in DAO 203-26.
The processes we reviewed during our audit are color coded for this chart and the NOAA process
chart located in Appendix I.




                                                4
U.S. Department of Commerce                                                                                                                              Audit Report STL-10953-9-0001
Office of Inspector General                                                                                                                                                March 1999




                                         Department of Commerce Financial Assistance Awards Process
Congress




                                   LEGISLATIVE AUTHORITY &
                                   APPROPRIATIONS REQUIREMENTS




                                                                                                                                 PREAWARD SCREENING
 Department




                                                                                                                                 * Office of General Counsel Review        FINANCIAL
                                   POLICIES &
                                                                                                                                                                           ASSISTANCE
                                   PROCEDURES                                                                                    * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                   -- Limited Background Check
                                                                                                                                   -- Credit Review
                                                                                                                                   -- Outstanding Audit Issues




                                                      SOLICITATION
                                                                             REVIEW                                                           PREAWARD SCREENING
 Bureau/Program




                                                                                                     SELECTION
                                    POLICIES &        Public Announcement
                                    PROCEDURES        and Notification of    * Independent Review                                             * Outstanding Accounts
                                                                                                     *   Quantitative Scores                                               SIGNED BY GRANT
                                                      Financial Assistance      Panel(s)             *   Public Policy Considerations           Receivable                 OFFICER
                                                      Opportunities (e.g.,   * Evaluation Criteria   *   Recommend Action                     * Suspensions & Debarments   OR DESIGNATED
                                                      Federal Register,      * Numeric Ranking       *   Decision Fully Justified and         * Award Prepared Properly    OFFICIAL
                                                      Commerce Business                                  Documented
                                                      Daily, Internet Web
                                                      Sites)
 Financial Assistance Applicants




                                                                                                                                                                              AWARD
                                                      PROPOSAL




                                                                                                           5
U.S. Department of Commerce                                          Audit Report STL-10953-9-0001
Office of Inspector General                                                            March 1999

                                   PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Commerce,
Science, and Transportation Committee. The Chairman requested that the Inspectors General of
the Departments of Commerce and Transportation and the National Science Foundation review
the discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each
IG review and report on the criteria developed, either statutorily or administratively, to guide
agency officials in making discretionary spending decisions, and on the extent to which the
criteria are appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase and an individual
program audit phase. During the survey phase, we identified and examined the body of laws,
regulations, and guidance applicable to the administration of federal financial assistance
programs. We also examined the authorizing legislation, provided by Department officials, for
each Commerce financial assistance program and classified each program as either a “full
discretion” program or a “limited discretion” program, based on the extent to which the
legislation limits the agency’s authority to independently determine the recipients and funding
levels of the awards made under the program. Finally, we examined the fiscal year 1997
appropriations legislation to identify legislatively mandated awards and reviewed accompanying
conference and committee reports to identify projects recommended for funding. Five awards
totaling $6,317,178 were made to the State of Louisiana using funds transferred from the
Highway Trust Fund as legislatively mandated under the Coastal Wetlands Planning, Protection,
and Restoration Act.

During the second phase of our review, we are conducting individual audits of the award
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including the Habitat Conservation Program. We are evaluating the
adequacy of each program’s established award procedures and the criteria for evaluating
individual applications. For those programs with procedures deemed to be adequate, we are
ascertaining whether they were followed in making awards in fiscal year 1997. For those
programs with procedures considered to be inadequate or lacking, we are reviewing how the
fiscal year 1997 award decisions were made. Finally, we are examining the legislatively
mandated projects identified for each program and determining their significance and impact on
fiscal year 1997 award decisions. We plan to issue individual reports, with any appropriate
recommendations, on each program, followed by a capping report summarizing the results of the
individual audits and providing recommendations for the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
survey phase of the OIG’s review, and discussed some of the preliminary observations from the
individual program audits.


                                               6
U.S. Department of Commerce                                          Audit Report STL-10953-9-0001
Office of Inspector General                                                            March 1999

This performance audit focused on all awards made during fiscal year 1997 under the Habitat
Conservation Program. Specifically, we:

l      Reviewed the program authorization and other information published in the CFDA and
       provided by NOAA’s Office of Legislative Affairs to identify criteria for funding
       decisions.

l      Reviewed policies and procedures for soliciting, reviewing and selecting applications for
       funding (see Appendix I for flowchart of process). We also reviewed NOAA’s Grants
       and Cooperative Agreements Manual as it applied to the solicitation, review, and
       selection process and assessed whether it was adequate and in accordance with DAO
       203-26, Department of Commerce Grants Administration and Office of Federal
       Assistance Financial Assistance Notice No.17, Department of Commerce Guidelines for
       the Preparation of Federal Register Notices Announcing the Availability of Financial
       Assistance Funds -- Requests for Applications.

l      Compared NOAA/NMFS procedures with its practices to determine if the process
       contained adequate internal controls to provide for competitive, merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       departmental and NOAA policies and procedures were followed.

l      Interviewed NOAA/NMFS program office officials concerning NOAA/NMFS’s
       solicitation, review, and selection procedures.

l      Examined fiscal year 1997 appropriations legislation to identify legislatively mandated
       projects and the accompanying committee and conference reports to identify projects
       recommended for funding under this program.

We did not rely on computer-based data supplied by NOAA and OEAM as a basis for our audit
findings and recommendations. We therefore conducted neither tests of the reliability of the
data, nor of the controls over the computer-based system that produced the data.

We performed the audit fieldwork at NOAA’s Grants Management Division in Silver Spring,
Maryland and our office in Seattle, Washington, during May and June 1998. We conducted the
audit in accordance with generally accepted government auditing standards, and under the
authority of the Inspector General Act of 1978, as amended, and Department Organization Order
10-13, dated May 22, 1980, as amended.




                                               7
U.S. Department of Commerce                                         Audit Report STL-10953-9-0001
Office of Inspector General                                                           March 1999

                          FINDINGS AND RECOMMENDATIONS

We found that NMFS’s criteria, procedures and practices for the solicitation, review, and
selection of the Habitat Conservation Program awards did not comply with departmental and
NOAA requirements and were not adequate to guide agency officials in making merit-based
discretionary funding decisions. NMFS did not administer the program as a competition-based
financial assistance program. NMFS has not developed and published merit-based evaluation
criteria against which funding applications could be reviewed, did not annually announce the
program in the Federal Register, and makes all awards under this program noncompetitively in
response to unsolicited proposals.

In addition, we reviewed the noncompetitive justifications for the seven awards made in fiscal
year 1997 and found two of them to be inadequate because NMFS did not provide sufficient
support for the unique applicant capabilities cited and/or did not demonstrate that cited
legislative authorities limited awards to specific recipients. NMFS’s practices do not comply
with Department and NOAA requirements to seek maximum program competition. We also
found that reviews performed by the NOAA grants office of the proposed awards did not
question NMFS’s lack of competitive award procedures or the validity of the noncompetitive
award justifications. As a result, NOAA/NMFS cannot provide reasonable assurance that
noncompetitive awards made under the program are merit-based and represent the most effective
means of achieving program objectives

I.   Habitat Conservation Program Is Not Administered As a
     Competition-Based Financial Assistance Program

NMFS’s Habitat Conservation Program is not administered as a competition-based financial
assistance program, as encouraged by federal laws and regulations and mandated by Department
of Commerce policies and procedures. All of the awards made under the program were made
noncompetitively in response to unsolicited proposals. We examined the written justifications
prepared for the seven noncompetitive awards made in fiscal year 1997 and found two to be
inadequate. Competition for the remaining five awards was not appropriate because NMFS
provided evidence of the legislative authorities supporting NMFS’s decision to make awards to
specific applicants. Specifically, we found that NMFS:

l      Did not comply with the Department’s requirement that merit-based evaluation criteria
       against which program applications for financial assistance could be reviewed, be
       developed and published.

l      Did not comply with the Department’s requirement that a notice be placed in the Federal
       Register, at least annually, announcing the availability of funds and soliciting award
       applications, and specifying the criteria and the process to be used in reviewing and
       selecting applications for funding.




                                              8
U.S. Department of Commerce                                             Audit Report STL-10953-9-0001
Office of Inspector General                                                               March 1999

l      Did not comply with the Department’s requirements that (1) all financial assistance
       awards be made on the basis of a competitive review process, unless a special waiver is
       obtained, and (2) the competitive review process meet minimum standards established by
       the Department.

As a result of these deficiencies, NMFS cannot provide reasonable assurance that noncompetitive
awards made without adequate justification are merit-based and represent the most effective
means of achieving program objectives.

A.   NMFS did not develop and publish
     merit-based evaluation criteria

The NOAA Grants and Cooperative Agreements Policy Manual, Chapter 1, Section A.4.,
requires that applications for financial assistance be reviewed by a panel of independent
reviewers in accordance with published criteria. The manual states that the criteria used for
evaluating applications must be published as part of the request for applications and prohibits
scoring against unpublished criteria. However, NMFS did not develop and publish merit-based
evaluation criteria against which competing program applications could be reviewed.

In particular, the agency did not place a notice in the Federal Register announcing the
availability of funding, soliciting competing applications for funding, and specifying the criteria
and the process to be used in reviewing and selecting applications for funding under the Habitat
Conservation Program for fiscal year 1997. Also, the NMFS Habitat Conservation Program
summary, published in the Catalog of Federal Domestic Assistance, did not cite program-
specific evaluation criteria. The summary simply states that proposals will be initially evaluated
by the appropriate NMFS Office, or a component laboratory, and are subject to review for
technical merit, soundness of design, competency of the applicant to perform the proposed work,
potential contribution of the project to national or regional goals, and appropriateness and
reasonableness of proposed costs. In order to be adequate to facilitate a merit-based evaluation
process, criteria used to evaluate applications for federal financial assistance must not be general
in nature, but as specific as possible with weights assigned to each criterion.

B.   Solicitation and review process did not comply
     with competitive requirements

Department Administrative Order 203-26, Section 4.02.b., requires Department bureaus to
publish an annual notice in the Federal Register for each financial assistance program
announcing the availability of funding, soliciting applications for funding, and specifying the
criteria and the process to be used in reviewing and selecting applications for funding. Section
4.02.f. also encourage the bureaus to publish notices in other widely distributed publications,
such as the Commerce Business Daily, to ensure widespread notice of funding opportunities.
Bureaus can also prepare and send requests for proposals directly to organizations known or
believed to be qualified. Also, NOAA’s Grants and Cooperative Agreements Policy Manual,




                                                 9
U.S. Department of Commerce                                           Audit Report STL-10953-9-0001
Office of Inspector General                                                             March 1999

Chapter 1, Section A.4., states that it is NOAA’s policy to seek maximum competition for its
discretionary grants and cooperative agreements. To accomplish this, the manual states that
when appropriate, program offices should publish requests for applications in the Federal
Register or otherwise solicit applications from all eligible organizations.

In addition, Department Administrative Order 203-26, Section 4.02.a., requires the establishment
of selection criteria for use in evaluating applications submitted for new awards. Section 4.02.h.
requires awards be made on the basis of competitive review, and Section 4.02.h.1.(e) requires the
use of the selection criteria in evaluating individual applications. Unless a program receives a
waiver of competitive review requirements, awards under the program are generally required to
be made on the basis of competitive review.

However, despite the Department and NOAA policies, NMFS did not announce the Habitat
Conservation Program in the Federal Register or Commerce Business Daily, and did not
establish merit-based criteria for evaluating proposals. By not announcing the program and
establishing award selection criteria as required, NMFS did not comply with Department as well
as its own policies and missed an important opportunity to seek potential program competition.
In addition, NMFS may have encouraged the use of noncompetitive awards by not developing
selection criteria for use in making awards for program needs when the anticipated awards cannot
be properly exempted from competitive review requirements.

Although NMFS did not announce the Habitat Conservation Program in the Federal Register, it
still could have placed preaward notices in the Federal Register announcing its intent to fund
specific program projects and requesting proposals or inviting inquires from interested
organizations. However, NMFS did not publish individual preaward notices in the Federal
Register for any of the seven awards NMFS funded on the basis of noncompetitive justifications.
In our opinion, the publishing of preaward notices would have provided (1) the public with an
opportunity to comment on proposed projects, (2) other qualified recipients an opportunity to
submit proposals for funding, and (3) NMFS officials with independent support for determining
whether a recipient is uniquely qualified to perform proposed projects.

C. Two noncompetitive awards under the program
   lacked adequate justification

In fiscal year 1997, NOAA/NMFS awarded two cooperative agreements, three continuation
amendments to existing cooperative agreements, one grant, and one amendment to an existing
grant under the Habitat Conservation Program, totaling $6,546,958. These awards were made to
two states and a zoological society. A list of the awards is provided as Appendix II. All of the
awards were made noncompetitively to organizations that had submitted unsolicited proposals
for NMFS funding consideration. Also, we noted that NMFS made one of the awards on the
basis of language contained in the fiscal year 1997 Senate appropriations conference report.
However, the award was not specifically contained in the fiscal year 1997 Appropriations Act
and was, therefore, not legislatively mandated. We understand that NMFS would want to



                                               10
U.S. Department of Commerce                                            Audit Report STL-10953-9-0001
Office of Inspector General                                                              March 1999

consider conference report language as it is an expression of congressional interest and intent.
However, NMFS was not required to make the awards without any consideration of competition
or other merit-based criteria. We also concluded that NMFS had no basis for not competing two
of the seven awards.

We examined the written justifications for the noncompetitive awards and noted that NMFS
justified all of the awards on the basis that each proposed recipient possessed unique capabilities
that made it the best or the only organization qualified to do the work. None of the
noncompetitive justifications cited general market surveys performed to determine if other
institutions were interested or capable of performing similar work. Five of the written
justifications referred to language contained in Coastal Wetlands Planning, Protection, and
Restoration Act. One award referred to language contained in the Comprehensive Environmental
Response, Compensation, and Liability Act and the Clear Water Act. Program personnel stated
that one additional award was made on the basis of fiscal year 1997 Senate appropriations
conference report language but it was not mentioned in that award’s written justification.
However, this award was not specifically contained in the fiscal year 1997 Appropriations Act
and was, therefore, not legislatively mandated.

Two awards, totaling $154,780, had inadequate noncompetitive justifications because NMFS did
not provide support for the unique capabilities cited or did not correctly demonstrate that the
awards were legislatively mandated. Specifically, the awards included $75,000 to the State of
Rhode Island and $154,780 to the Valley Zoological Society.

Competition for the remaining five awards was not appropriate because NMFS provided
evidence of the legislative authority supporting NMFS’s decision to make awards to the State of
Louisiana as authorized under the Coastal Wetlands Planning, Protection, and Restoration Act.

The following is a synopsis of the seven noncompetitive awards.

       State of Louisiana

       NMFS received five unsolicited proposals from the State of Louisiana totaling
       $6,317,178. NOAA/NMFS awarded the full amount as two new cooperative agreements
       (Nos. NA77FZ0156 and NA77FZ0254) and three amendments to existing cooperative
       agreements (Nos. NA47FZ0477, NA57FZ0321, and NA47FZ0099) to the state in fiscal
       year 1997 using funds transferred from the Highway Trust Fund for the protection and
       restoration of wetlands. The awards required $2,284,312 in matching contributions from
       the state, bringing the project budgets to $8,601,490. The purpose of the awards was to
       fund projects authorized under the Coastal Wetlands Planning, Protection, and
       Restoration Act. The project periods were limited to one year.

       The written noncompetitive justifications stated that the awards were part of the
       legislative mandate under the Coastal Wetlands Planning, Protection, and Restoration
       Act. Under the Act, the federal government is to provide funds specifically to the State of
       Louisiana for wetland restoration projects. Competition was not appropriate as NMFS

                                                11
U.S. Department of Commerce                                            Audit Report STL-10953-9-0001
Office of Inspector General                                                              March 1999

       provided evidence that the Coastal Wetlands Planning, Protection, and Restoration Act
       directed the funding of projects to the State of Louisiana.

       Valley Zoological Society

       The fiscal year 1996 Senate appropriations conference report states that NMFS was to
       continue to provide funding in fiscal year 1997 for ongoing efforts at Rancho Nuevo, and
       the fiscal year 1997 Senate appropriations conference report states that NMFS was to
       continue to fund the efforts at Rancho Nuevo. Based on the conference report language
       NMFS allocated funds for this project and requested that the Valley Zoological Society
       submit a project proposal for funding consideration. NMFS received an unsolicited
       proposal from the Valley Zoological Society for $154,780. NOAA/NMFS awarded a
       $154,780 amendment (No. NA66FZ0468) to an existing grant to the society in August
       1997 using funds provided in its fiscal year 1997 appropriations. The grant amendment
       did not require a matching contribution. The award’s purpose was to support basic
       operations and expansion of facilities to protect the nesting grounds of the Kemp’s Ridley
       sea turtles located in Rancho Nuevo, Mexico. The project period was limited to one year.


       The written noncompetitive justification states that the Valley Zoological Society, in
       conjunction with Mexico’s Instituto National de Pesca, has operated the day-to-day
       activities of the U.S. program to protect the Kemp’s Ridley nesting beach at Rancho
       Nuevo since 1989. In addition, the Society’s principal investigator served as the U.S.
       field assistance coordinator for this project, has 18 years of experience running this camp,
       directs annual surveys of Kemp’s Ridley nesting activities, is a member of the Kemp’s
       Ridley Working Group which is responsible for implementing the recovery plan for this
       species, serves as deputy director of the Gladys Porter Zoo, is fluent in Spanish, and has
       established long standing personal relationships with authorities in Mexico. The
       justification also noted that the proximity of the zoo to the Mexican border enhances the
       efficiency and cost effectiveness of transporting personnel and equipment to the camp at
       Rancho Nuevo.

       The noncompetitive justification was inadequate because the project is not contained in
       the fiscal year 1997 Appropriations Act and therefore is not legislatively mandated, and
       NMFS did not provide evidence, such as the results of a published solicitation, that the
       Valley Zoological Society was the only entity capable of performing the award.

       State of Rhode Island

       NMFS received funds in a damage settlement from an oil spill in Rhode Island under the
       Clean Water Act and CERCLA. NMFS identified a need for a shellfish project in Rhode
       Island and requested that the State of Rhode Island Department of Environmental
       Management submit a project proposal for funding consideration. NMFS received an
       unsolicited proposal from the State of Rhode Island’s Department of Environmental
       Management for $75,000. NOAA/NMFS awarded a $75,000 grant (No. NA76FZ0114)

                                                12
U.S. Department of Commerce                                             Audit Report STL-10953-9-0001
Office of Inspector General                                                               March 1999

       to the department in December 1996 using funds NOAA assesses from responsible
       parties for injuries to natural resources under the Clear Water Act and CERCLA. The
       grant did not require a matching contribution. The award’s purpose was to establish
       quahog (hard clam) spawner sanctuaries. The project period was limited to one year.

       The written noncompetitive justification states that the Rhode Island Department of
       Environmental Management is uniquely qualified to implement the project because it is
       the sole fishery management authority in Rhode Island waters, no other entity can legally
       authorize transplanting of shellfish from closed areas in Narragansett Bay, the Rhode
       Island Department of Environmental Management has had an ongoing shellfish transplant
       program for over ten years, and no other entity can enforce the harvest prohibition within
       the sanctuary. The justification also states that the award was made to compensate the
       public for losses associated with an oil spill in Narragansett Bay, Rhode Island; under the
       Clear Water Act and CERCLA, NOAA is required to use the assessed funds to restore the
       damaged resource to its natural state; an oil spill caused damages to the quahog (hard
       clam) fishery in Narragansett Bay; NOAA determined that a grant should be awarded to
       establish two quahog spawner sanctuaries in the bay; and after the clams are transplanted
       to the sanctuaries the fishery will be closed to harvesting for two years.

       The noncompetitive justification was inadequate because NMFS did not provide
       evidence, such as the results of a published solicitation, that the State of Rhode Island
       was the only entity capable of performing the award.

Unsolicited proposals are applications for financial assistance that are not submitted in response
to a formal solicitation notice published in the Federal Register. Because unsolicited proposals
are a means by which unique or innovative ideas can be made available to accomplish specific
projects, scientific organizations like NOAA and NMFS encourage their submission. DAO
203-26, Section 4.02.i., allows the receipt of unsolicited proposals, but states that no unsolicited
proposal may be funded outside the competitive process if that proposal falls within the program
goals of a competitive program. In addition, the receipt of a technically acceptable unsolicited
proposal does not, in itself, justify a noncompetitive award. DAO 203-26, Section 4.02.i., also
states that the decision to fund an unsolicited proposal must be fully justified and included in the
official grant file.

While NMFS wrote noncompetitive justifications for the seven awards, the justifications for the
Valley Zoological Society and State of Rhode Island awards do not cite any factual basis for the
assertions that four applicants possessed unique capabilities. Since NMFS also did not comply
with the Department’s requirement that a notice be published in the Federal Register soliciting
applications for fiscal year 1997 awards under the Habitat Conservation Program, it lacked
support for its claims that the organizations that submitted unsolicited proposals were the only
ones that could perform the work. Instead, the justifications contained statements by program
office officials that are based on knowledge accumulated through their past working relationships
with recipients. Without documented support, a belief that an organization possesses unique
qualifications does not justify making a noncompetitive award because there may be other

                                                 13
U.S. Department of Commerce                                             Audit Report STL-10953-9-0001
Office of Inspector General                                                               March 1999

qualified applicants unknown to program officials. Such a belief should still be tested through a
competitive review process that includes widespread solicitation of eligible applicants, through
announcement in the Federal Register and other means.

We believe the justification for a noncompetitive award should include a documented market
search to verify or confirm that there is only one source. The market search should include, at a
minimum, a preaward notice in the Federal Register stating that the agency expects to make a
noncompetitive award and inviting other interested and qualified parties to inquire. Such a
practice would be similar to the requirements in the Federal Acquisition Regulation (FAR) for
contracting (see 48 FAR, Part 6.302). In addition, the review process for a noncompetitive award
should ensure that the proposal meets program goals. NMFS did not publish individual preaward
notices for the four awards.

II. NOAA Reviews Of Proposed NMFS Awards Are Not Effective

Reviews performed by the NOAA grants office of the seven proposed noncompetitive awards did
not question NMFS’s lack of competitive award procedures or the validity of the noncompetitive
award justifications. The NMFS’s Office of Habitat Conservation and the Office of Protected
Resources forwarded, as required, justifications and related documents for the proposed
noncompetitive awards to the grants office for review and approval. However, the grants office’s
review of the proposed awards did not ensure the NMFS program office’s compliance with
applicable Department and NOAA competitive requirements.

DAO 203-26, Section 4.01., requires that each organization unit establish a central liaison to
ensure that its programs comply with federal, departmental, and organization grant requirements
and to review grant documents for compliance. The NOAA Office of Finance and
Administration, which includes the Grants Management Division, fulfills that responsibility for
NOAA.

The grant files do not indicate whether the Grants Management Division questioned why the
NMFS program office did not prepare and submit the required annual Federal Register program
announcement. The files also do not show whether the grants office determined if the
noncompetitive justifications were factually based or if the program office had made any attempt
to identify other qualified sources before submitting the noncompetitive awards. Grants
Management Division personnel stated that they relied on and accepted as valid the technical
descriptions of perceived unique capabilities presented in the program office’s award
justifications. They further stated that while they reviewed the justifications to determine if they
addressed one or more of the acceptable reasons for a noncompetitive award, they did not verify
the information because the office has no authority over the offices submitting the justifications,
they can not make field trips to verify information, and scientists involved would not consider
them qualified to make the type of scientific determinations included in the noncompetitive
justifications. Therefore, we believe the reviews were not effective in ensuring the program
office’s compliance with Department and NOAA policies on competition.


                                                 14
U.S. Department of Commerce                                            Audit Report STL-10953-9-0001
Office of Inspector General                                                              March 1999

III.   Conclusions

We concluded that NMFS’s fiscal year 1997 award process under the Habitat Conservation
Program was not adequate to guide officials in making merit-based discretionary funding
decisions because NMFS did not develop and publish merit-based evaluation criteria and the
noncompetitive awards of one grant and an amendment to an existing grant did not comply with
Department and NOAA policies of seeking maximum competition. Also, NMFS’s written
justifications for the awards did not cite any factual basis for its claims that the two applicants
had unique capabilities and did not correctly demonstrate that the awards were legislatively
mandated. Despite these facts, the NOAA grants office did not question the awards. By not
following competitive procedures, NOAA/NMFS could make questionable or even inappropriate
noncompetitive program awards in instances where competition is available. In addition, by not
seeking competition, NMFS misses the opportunity to consider proposals containing the ideas,
designs, technology, or services that other qualified organizations can produce and thus lose an
opportunity to increase program quality.

NOAA Response

In its response to the draft report, NOAA stated that the agency agrees that more awards should
be granted competitively for all discretionary funding programs and that a rigorous solicitation
process should be used. NOAA also stated that the agency is continuing to look at its current
processes and will provide more specific comments and details as part of the audit action plan
submitted in response to the final report.

OIG Comments

NOAA’s concurrence that more awards should be competitively awarded is a positive reaction to
this report. We look forward to the Habitat Conservation Program moving in that direction. We
have modified our recommendations in response to discussions with NOAA officials regarding
the draft report to clarify that we did not intend to suggest that all awards must be made
competitively. We understand that an unsolicited research proposal may very well be justified
for noncompetitive funding on an exception basis. However, we are emphasizing that an entire
program should not be administered on a noncompetitive basis, as this one is, unless mandated
by law.

IV.    Recommendations

We recommend that the Assistant Administrator for Fisheries ensure that financial assistance
awards under the Habitat Conservation Program are made through a competitive merit-based
process, unless otherwise mandated by law or adequately justified, and that the award process
complies with Department policies and procedures and includes the following four elements:

       (1)     Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations;

                                                15
U.S. Department of Commerce                                            Audit Report STL-10953-9-0001
Office of Inspector General                                                              March 1999



       (2)     Independent application reviews that consistently apply written program
               evaluation criteria;

       (3)     Written justifications for award decisions that deviate from recommendations
               made by application reviewers; and

       (4)     Adequate written justifications for noncompetitive awards which document
               appropriate market search efforts to validate the determination that there is only
               one source for the anticipated award. The market search should include, at a
               minimum, a preaward notice in the Federal Register stating that the agency
               expects to make a noncompetitive award and inviting other qualified parties to
               inquire.

We also recommend that the Chief Financial Officer/Chief Administrative Officer, as the
Director of the Office of Finance and Administration, which includes the Grants Management
Division, require that grants officer reviews of proposed noncompetitive awards include
procedures designed to objectively determine compliance with Department and NOAA
competitive requirements.




                                                16
U.S. Department of Commerce                                                                Audit Report STL-10953-9-0001
Office of Inspector General                                                                                  March 1999

                                                                                                                 APPENDIX I
                                                                                                                  Page 1 of 1
                       NOAA/NMFS Procedures for Review and Selection of Awards




                                        Application submitted in response to
                                        legislative language or direct request
                                        from NOAA/NMFS




                                                      Program
                                             Office determines if should         No
                                                                                         Application
                                             be funded and if funds are
                                                                                          rejected
                                                      available


                                                      Yes




      Complete a Financial Assistance   Complete a Review Checklist
                                                                                      Complete Sole Source Justification
      Information Sheet:
                                         -- Competitive, sole source or
                                            congressionally mandated                  Submitted by Director/Chief of the
       --   Bureau
                                         -- Project analysis                          office or his designee
       --   Applicant
       --   Award period                 -- Conflict of interesrt
                                         -- Special award conditions                  Requests waiver to minimum
       --   Proposed amount
                                         -- Reporting requirements                    competitive review process and
       --   CFDA no.
                                         -- Grant or cooperative agreement?           gives justification
       --   Scope of work
       --   Statutory authority




                                               Send to NOAA Grants
                                               Management Office for
                                                review and approval




                                               Send to Department for                                   Solicitation Process
                                                review and approval


                                                                                                          Review Process



                                                                                                         Selection Process
U.S. Department of Commerce                                               Audit Report STL-10953-9-0001
Office of Inspector General                                                                 March 1999

                                                                                         APPENDIX II
                                                                                           Page 1 of 1


           NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION
                    HABITAT CONSERVATION PROGRAM

                        Awards and Amendments for Fiscal Year 1997


 Number         Type                    Recipient               Type of Work                Amount

 NA77FZ0156     New Cooperative         State of Louisiana      Coastal Wetlands Planning   $3,090,000
                Agreement

 NA77FZ0254     New Cooperative         State of Louisiana      Coastal Wetlands Planning     648,570
                Agreement

 NA47FZ0477     Amendment to            State of Louisiana      Coastal Wetlands Planning    1,656,101
                Cooperative Agreement

 NA57FZ0321     Amendment to            State of Louisiana      Coastal Wetlands Planning     782,507
                Cooperative Agreement

 NA47FZ0099     Amendment to            State of Louisiana      Coastal Wetlands Planning     140,000
                Cooperative Agreement

 NA76FZ0114     New Grant               State of Rhode Island   Quahog Fishery                 75,000

 NA66FZ0468     Amendment to Grant      Valley Zoological       Ridley Turtles                154,780
                                        Society

                                                                                 Total      $6,546,958
